               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        New York International Service
        Center – International Air Mail
                Records Unit

                       Audit Report




                                          December 19, 2011

Report Number FT-AR-12-006
                                                                   December 19, 2011

                                            New York International Service Center –
                                                International Air Mail Records Unit

                                                        Report Number FT-AR-12-006



IMPACT ON:
International mail records processed at     policy and clearly document the process
the New York International Air Mail         used to review SIRVI test data.
Records Unit (records unit).                We also recommended the executive
                                            director, International Operations, direct
WHY THE OIG DID THE AUDIT:                  GBS management to activate the
Our objective was to determine whether      time-out feature and lock the user
the records unit at the New York            session after a designated period of
International Service Center processed      inactivity.
inbound international mail transactions
timely and accurately so that bills to      WHAT MANAGEMENT SAID:
foreign postal administrations are          Management agreed with our findings
correct and timely.                         and recommendations. They stated
                                            Statistical Program Letter Number 2,
WHAT THE OIG FOUND:                         Fiscal Year 2012, and related training
The New York records unit processed         scheduled for December 2011, will
international mail transactions to ensure   include an update to the SIRVI policy.
the U.S. Postal Service billed foreign      They also plan to activate the GBS time
postal administrations timely. However,     out feature to lock the user session after
management did not always perform a         a designated period of inactivity and
complete review of the System for           prevent the acceptance of manually
International Revenue and Volume            entered duplicates into the Receipt
Inbound (SIRVI) test data. Also, the        System by February 2012.
Global Business System (GBS) was not
configured to log a user off the network    AUDITORS’ COMMENTS:
after a predetermined period of             The U.S. Postal Service Office of
inactivity. In addition, the GBS did not    Inspector General considers
reject the manual entry of the same         management’s comments responsive to
receptacle multiple times.                  the recommendations, and corrective
                                            actions should resolve the issues
WHAT THE OIG RECOMMENDED:                   identified in the report.
We recommended the Statistical
Programs manager update the current         Link to review the entire report
December 19, 2011

MEMORANDUM FOR:            BRENT A. RANEY
                           EXECUTIVE DIRECTOR, INTERNATIONAL OPERATIONS

                           RON POLAND
                           MANAGER, STATISTICAL PROGRAMS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – New York International Service
                           Center – International Air Mail Records Unit
                           (Report Number FT-AR-12-006)

This report presents the results of our audit of the New York International Service
Center – International Air Mail Records Unit (Project Number 11BM002FT003).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie K. Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Steven R. Phelps
    Richard N. Bates
    Charles F. Conti
    Corporate Audit and Response Management
New York International Service Center –                                                                                 FT-AR-12-006
 International Air Mail Records Unit

                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

SIRVI Test Review .............................................................................................................. 2

GBS Timeout Requirement ................................................................................................. 3

Receipt System Manual Entries .......................................................................................... 3

Recommendations .............................................................................................................. 4

Management’s Comments .................................................................................................. 4

Evaluation of Management’s Comments ............................................................................ 4

Appendix A: Additional Information..................................................................................... 5

   Background ...................................................................................................................... 5

   Objective, Scope, and Methodology ............................................................................... 6

   Prior Audit Coverage ....................................................................................................... 7

Appendix B: Statistical Sampling and Projections for Inbound International Letter Post,
Parcel Post, and Express Mail at the New York ISC ......................................................... 8

Appendix C: Management’s Comments ............................................................................. 9
New York International Service Center -–                                                               FT-AR-12-006
 International Air Mail Records Unit

Introduction

This report presents issues pertaining to inbound international mail at the New York
International Service Center (ISC) – International Airmail Records Unit (records unit)
(Project Number 11BM002FT003). We identified these issues during our audit of the
fiscal year (FY) 2011 U.S. Postal Service Financial Statements – St. Louis Information
Technology and Accounting Service Center (Project 11BM002FT001). The objective
was to determine whether the records unit processes inbound international mail
transactions timely and accurately to ensure the St. Louis International Accounting
Branch (accounting branch) can correctly and timely bill the foreign postal
administrations. 1 This audit was self-initiated and addresses financial risk. See
Appendix A for additional information about this audit.

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the U.S. Foreign postal administrations pay the Postal Service for sorting, dispatching,
and delivering inbound international mail at the ISCs. The Postal Service developed the
Global Business System (GBS) to assist in streamlining international mail processing,
which is comprised of the Receipt System, Dispatch System, and International
Reconciliation System. 2 The International Reconciliation System assesses all records
based on a set of validation rules and assigns a validation status — pass or fail — to
each record. One reason records may fail initial validation status is that scanned data
from the Receipt System does not agree with electronic data interface (EDI) 3 data
received from the foreign postal administrations. When this occurs, records unit clerks
are required to resolve the failed record. Specifically, they must update International
Reconciliation System records with the most reliable data source within established
timeframes to complete the validation process. Clerks sometimes use verification notes 4
and manifests 5 as tools in this process.

Foreign postal administrations pay terminal dues 6 to the Postal Service to deliver mail to
its final U.S. destination. Data from the System for International Revenue and Volume
Inbound (SIRVI) 7 is used to calculate inbound terminal dues. The data also support
regulatory requirements for revenue, pieces, and weight reporting, as well as cost
analysis.
1
  Posts outside the U.S. that send and receive mail.
2
  The Receipt System captures the initial scan of international mail at the inbound receiving terminals. The Dispatch
System captures the scan of outbound mail. The International Reconciliation System aids in tracking international
mail records, identifying issues, and reconciling discrepancies.
3
  Foreign postal administrations can provide EDI data to the Postal Service before mail arrives at the ISCs. EDI
contains dispatch information, including dispatch date, and is pre-populated into the Receipt System. When the
receiving unit clerk scans the 29-character barcode upon arrival at the ISC, the scan retrieves the EDI data and
matches it with the receiving unit data.
4
  These notes are formal messages between postal administrations that relay information regarding the exchange of
mail, in particular irregularities in the preparation, dispatch, and receipt of mail.
5
  A document used to detail the inbound mail dispatches carried by third parties for delivery through the Postal
Service network.
6
  Payment from foreign postal administrations to the Postal Service for a portion of the costs incurred to support,
transport, and deliver foreign mail to its final U.S. address.
7
  SIRVI is one of the data collection systems for international mail that captures pieces and weights from foreign
origin mail entering the U.S.
                                                               1
New York International Service Center –                                                          FT-AR-12-006
 International Air Mail Records Unit


Conclusion

The New York records unit processed international mail transactions to ensure the
St. Louis accounting branch billed foreign postal administrations timely. However,
management did not always completely review SIRVI test data. Also, personnel did not
configure the GBS to log a user off the network after a predetermined period of
inactivity. In addition, the GBS did not reject manual entry of the same receptacle
multiple times.

SIRVI Test Review

Management did not always perform a complete review of SIRVI test data at the ISCs.
A complete review consists of evaluating the overall test summary and each test in the
receptacle summary for accuracy. We observed one reviewer unable to perform the
complete SIRVI test review. This occurred because the policy used to review SIRVI test
data was not current and did not clearly document the process needed to perform the
review. The Postal Service has identified the review as a key control in financial
reporting. An effective management control system includes policies, procedures, and
practices that ensure management can achieve their objectives. SIRVI test data that is
fully reviewed improves the reporting of accurate country-specific volume estimates,
which contributes to the correct billing, recording, and collection of terminal dues.

The SIRVI policy 8 outlines the rules a reviewer must follow to ensure the accuracy and
consistency of data collection. However, reviewers were unable to perform a complete
review of SIRVI test data when following the policy. For example:

     The reviewer was unaware of how to ensure the number of content pieces were
      consistent with the given receptacle type and weight because the policy did not
      clarify how to ensure consistency.

     The reviewer was unaware of how to compare the dispatch number to the receptacle
      number in GBS, and the policy did not clarify how to complete the comparison.

Data collection is the cornerstone on which vital international statistics are based.
Quality data and, ultimately, the ability to make accurate revenue and volume
estimations depend on proper data collection techniques. It is important that reviewers
perform a complete review of test data the same way, no matter who performs the test.
Without policies that provide clear and updated instructions, management cannot
ensure SIRVI test data are reviewed accurately and consistently to meet established
standards. In addition, management can use clearly documented policies and
procedures as a training tool for persons designated to perform the review.




8
    Computerized Onsite Data Entry System (CODES) Web Base Unit Review Policy for SIRVI, dated, June 2005.


                                                        2
New York International Service Center –                                                                 FT-AR-12-006
 International Air Mail Records Unit


GBS Timeout Requirement

The GBS did not lock user sessions after the designated period of inactivity. We found
the system appeared locked but users could access screens used in previous sessions
without re-entering a password by using the browser’s back button. According to policy,
Postal Service information technology resources are required to timeout after a
maximum of 30 minutes. 9 Employees use the system to enter, edit, and delete dispatch
information, which directly affects international revenue, expenses, receivables, and
payables. As a result, there is an increased risk that an unauthorized individual could
enter erroneous data or delete dispatch information from the system. Management
planned to update GBS in October 2011, but due to the need for an extended testing
and validation period, the update was rescheduled for February 2012.

Receipt System Manual Entries

The Receipt System is capable of providing the record unit with incorrect receptacle
data. 10 This data can be used to bill foreign postal administrations for the delivery of
mail when supporting documentation or EDI is not available. Normally, a clerk scans a
29-character barcode 11 located on every mail receptacle into the Receipt System to
capture the data needed to bill foreign postal administrations. During the scanning
process, programming logic prevents the acceptance of duplicate entries. However, if
the 29-character barcode is missing or the existing barcode is unrecognizable by the
scanning equipment, ISC clerks physically weigh the receptacle and then manually
enter the information. Once a clerk manually enters the characteristics into the system,
the system creates a unique interim 21-character barcode. 12 It is possible for the
characteristics of a receptacle to be re-entered in the system multiple times, creating a
unique 21-character barcode with each entry. The creation of a different 21-character
barcode for the same receptacle makes identification of duplicate receptacles difficult.

Application programmers have not configured the system to reject receptacles 13
manually entered multiple times. A key Sarbanes-Oxley (SOX) control 14 requires that
management configure the Receipt System to prevent the duplicate entry of inbound
mail into the system within a 15-day period. Data incorrectly entered into the system
multiple times may result in the overbilling of foreign postal administrations.

Management plans to take corrective action in February 2012 to prevent the acceptance
of manually entered duplicates into the Receipt System; therefore, we are not making a
recommendation at this time. We plan to monitor the progress of the application

9
  Handbook AS-805, Information Security, Section 9-7.9.3 Time-out Requirements (Re-Authentication).
10
   Mail receptacle data makes up the 29-character barcode.
11
   Foreign postal administrations place a label containing a 29-character barcode on each receptacle. This barcode
captures the characteristics of a receptacle such as origin country code, destination country code, destination city,
mail category, dispatch number, receptacle number, and receptacle weight, which the Postal Service uses to
determine the cost associated with delivering foreign mail.
12
   With the exception of the destination city, the 21-character barcode does not include any of the 29-character
barcode characteristics.
13
   Receptacles include trays, sacks, and boxes that usually contain more than one piece of mail.
14
   SOX key control number 114.CA045.


                                                           3
New York International Service Center –                                      FT-AR-12-006
 International Air Mail Records Unit


changes and assess the adequacy of procedures during the FY 2012 financial
statements audit.

Recommendations

We recommend the manager, Statistical Programs:

1. Update the current policy and clearly document the process used to review the
   System for International Revenue and Volume Inbound test data.

We recommend the executive director, International Operations, direct the manager,
Global Systems Management, to:

2. Activate the Global Business System time-out feature and lock the user session after
   a designated period of inactivity.

Management’s Comments

Management agreed with our findings and recommendations. They stated that
Statistical Program Letter Number 2, Fiscal Year 2012, and related training scheduled
for December 2011 will include an update to the SIRVI policy. They also plan to activate
the GBS time-out feature and lock the user session after a designated period of
inactivity by February 2012. Management also provided additional clarification to our
finding on the Receipt System manual entries. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed. This recommendation should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendation can be closed.




                                           4
New York International Service Center –                                                                  FT-AR-12-006
 International Air Mail Records Unit


                                  Appendix A: Additional Information

Background

Inbound international mail is foreign-originating mail destined for delivery in the U.S.
Foreign postal administrations pay the Postal Service for sorting and dispatching
inbound international mail at the ISCs. 15 In FY 2010, revenue for inbound international
mail was approximately $352 million. Currently, five records units 16 process failed
dispatch records for non-exclusion countries 17 before the data is transmitted from the
International Reconciliation System to the Foreign Post Settlement System and,
subsequently, to the St. Louis International Accounting Branch for billing the appropriate
foreign postal administration.

When Receipt System data does not agree with EDI data, clerks are required to update
the failed dispatch record within established timeframes. When a record has failed or
the records unit has not received billing documents, clerks create a verification note
(VN) to request the documentation or note billing changes made by the records unit.
The records unit uses the requested billing documents as support in the billing
settlement process. Supervisors are responsible for monitoring the failed records
process, which includes resolving failed dispatch records, tracking VNs,18 and auditing
these notes. 19

Quarterly, the accounting branch submits a request to the Eagan Information
Technology and Accounting Service Center to generate, print, and mail billing reports to
the accounting branch. Annually, the accounting branch prints billing reports when
necessary.

SIRVI data are used to calculate terminal dues. By taking the total and average number
of items per kilogram, the system arrives at a gross items per kilogram figure that is
used to calculate provisional 20 payments and yearly terminal dues that target countries
owe the Postal Service.

Data collection technicians conduct SIRVI tests at international exchange offices that
receive foreign origin international mail. The technicians must immediately upload all

15
   Six ISCs in New York, Miami, Chicago, Los Angeles, San Francisco, and Honolulu, as well as the New Jersey
Network Distribution Center, process international mail.
16
   Chicago, Los Angeles, New York, Honolulu, and New Jersey.
17
   The records unit is required to fix failed records for the 170 non-exclusion countries that settle using transitional
Universal Postal Union (UPU) procedures for mail flows. The records unit is not required to fix failed records for
exclusion countries because they agree to settle via EDI messaging. One of the UPU’s responsibilities is to establish
international mailing procedures.
18
   To track verification notes, supervisors must complete weekly the VN Volume Report, included on the Postal
Service’s Blue Share. They must indicate the number of notes from foreign postal administrations their clerks worked
and are outstanding according to the age of the note.
19
   Weekly, the supervisor audits six notes of adjusted mail data to verify the accuracy and timeliness of notes created
and responded to in accordance with UPU and Postal Service policy. The audit results are posted on an internal site
called the Blue Share.
20
   Countries can request provisional payments once a year between April and June. Payments are based on the last
four accepted quarters and are deducted from the total amount due when accounts are settled.


                                                           5
New York International Service Center –                                                                  FT-AR-12-006
 International Air Mail Records Unit


completed SIRVI tests to the Computerized On-Site Data Entry System (CODES) Web
Base Unit. 21 To ensure the Postal Service is collecting all revenue due, management is
required to perform a daily review and approve SIRVI tests before they transmit them to
the San Mateo mainframe for aggregation with the nation’s test.

Inbound foreign receiving unit clerks use the Receipt System to manage the arrival,
receipt, and opening of import mail functions. Upon receipt, clerks scan the
29-character barcode attached to each receptacle or manually enter the characteristics
of the receptacle into the system. The records unit uses the receiving unit data in the
system to resolve failed records when the foreign postal administration’s EDI data or
billing documents are not available. The accounting branch uses the reconciled records
for billing purposes.

Objective, Scope, and Methodology

The objective of this audit was to determine whether the records units processes
international mail transactions timely and accurately to ensure that the St. Louis
International Accounting Branch can correctly and timely bill foreign postal
administrations.

This report addresses work performed at the New York records unit. 22 To accomplish
our objective, we traced billing data residing in the Foreign Post Settlement System to
inbound international Letter Post, Parcel Post, and Express Mail® source documents;
verification notes; and International Reconciliation System data. We used a total
unrestricted random sample size of 90 New York ISC dispatch records from
October 2010 through March 2011. See Appendix B for our statistical sampling of the
Letter Post, Parcel Post, and Express Mail documents.

We used the verification note audit log on the Postal Service’s Blue Share to ensure all
weekly audits of notes from October 2010 through June 2011 complied with records unit
standard operating procedures.

We interviewed management, assessed the CODES Web Base Unit event logs, and
analyzed the SIRVI test data reports to determine whether management reviewed and
approved SIRVI test data.

We conducted this audit from June through December 2011 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and


21
     CODES Web Base Unit serves as a central gathering place of collected data from a district’s data collectors.
22
     We issued separate reports for audit work performed at the Chicago and Los Angeles ISCs.


                                                            6
New York International Service Center –                                            FT-AR-12-006
 International Air Mail Records Unit


conclusions with management on October 26, 2011 and included their comments where
appropriate.

We relied on computer-generated data from the GBS and the Foreign Post Settlement
System to develop our findings. We assessed the reliability of the data on these
applications by tracing selected information on inbound international mail volumes to
supporting source documents, verification notes, and other system data. We determined
that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                               Report        Final
                               Number       Report      Monetary
      Report Title                           Date        Impact           Report Results
 Fiscal Year 2010           FT-AR-11-009   3/31/2011        $0        The Chicago records unit
 Postal Service                                                       supervisor did not review
 Financial Statements                                                 inbound verification notes
 Audit – St. Louis                                                    created by the record unit
 Information Technology                                               clerks. We made no
 & Accounting Service                                                 recommendations.
 Center
 Los Angeles                FT-AR-10-001   10/13/2009    $163,000     We determined that
 International Service                                                volume data used to bill
 Center – Inbound                                                     foreign postal
 International Mail                                                   administrations for
                                                                      inbound international
                                                                      Letter Post, Parcel Post,
                                                                      and Express Mail service
                                                                      was not always accurate
                                                                      and properly supported.
                                                                      Management agreed with
                                                                      our findings and
                                                                      recommendations.
 Miami International        FT-AR-08-012    9/3/2008    $2,084,620    We determined that
 Service Center –                                                     management did not
 Inbound International                                                always bill the foreign
 Mail                                                                 postal administration for
                                                                      manually entered
                                                                      dispatches for inbound
                                                                      international Express Mail.
                                                                      We made no
                                                                      recommendations.
 New York International     FT-AR-08-005   1/24/2008    $13,700,604   We identified a high
 Service Center –                                                     number of discrepancies
 Inbound International                                                between supporting
 Mail                                                                 documents and billing data
                                                                      for Express Mail and letter
                                                                      post mail. Management
                                                                      agreed with our finding
                                                                      and recommendations.




                                               7
New York International Service Center –                                        FT-AR-12-006
 International Air Mail Records Unit


Appendix B: Statistical Sampling and Projections for Inbound International Letter
           Post, Parcel Post, and Express Mail at the New York ISC

The objective was to determine whether the records unit processes inbound
international mail transactions timely and accurately to ensure that the St. Louis
accounting branch can correctly and timely bill foreign postal administrations.

In support of this objective, we employed a simple random sample for all mail types.
The sample design allowed statistical projection of the number of mail records with
errors.

The audit universe consisted of 35,247 inbound international mail records processed at
the New York records unit for the period October 1, 2010, through March 31, 2011. We
used unrestricted random sampling of records for the New York ISC. We based our
sample sizes on hypothesis testing sampling theory, which is a type of simple random
attribute sampling. Our sample size for the New York ISC is shown below.

The New York records unit audit consisted of the following universe of inbound
dispatches.

                                              Express
                      Total          Parcel     Mail        Empty            Letter
     ISC            Records           Post    Service     Receptacles         Post
   New York          35,247          7,288     9,670         171             18,118

We pulled random samples of 90 records of inbound dispatches for the New York ISC
Following are the details regarding the samples.

                                              Express
                     Sample          Parcel     Mail        Empty            Letter
     ISC              Size            Post    Service     Receptacles         Post
   New York            90              17       21            0                52

Based on the sample results, we estimate that the error rate is 3.33 percent. We are
95 percent confident that the error rate is between 0.7 and 9.43 percent.


                                    Sample    Number of            Error Rate
     ISC            Universe         Size      Errors             (Percentage)
   New York          35,247           90         3                    3.33




                                              8
New York International Service Center –                        FT-AR-12-006
 International Air Mail Records Unit



                           Appendix C: Management’s Comments




                                           9
New York International Service Center –        FT-AR-12-006
 International Air Mail Records Unit




                                          10
New York International Service Center –        FT-AR-12-006
 International Air Mail Records Unit




                                          11
